CERTIFICATE OF SERVICE
NO. 19-205, 19-350
City of Flint / Stephen Busch / et al.
Petitioner(s)
v.
Shari Guertin et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the SHARI
GUERTIN ET AL. BRIEF IN OPPOSITION, by mailing three (3) true and correct copies of the same by
USPS Priority mail, postage prepaid for delivery to the following addresses:
Sheldon Howard Klein
Butzel Long
41000 Woodward Avenue
Stoneridge West Building
Bloomfield Hills, MI 48304
(248) 258-1414
klein@butzel.com
Counsel for City of Flint, et al.

John J. Bursch
Bursch Law PLLC
9339 Cherry Valley SE, Suite 78
Caledonia, MI 49316
(616) 450-4235
jbursch@burschlaw.com
Counsel for Stephen Busch, et al.

Lucas DeDeus

December 16, 2019
SCP Tracking: Geske-55 West Wacker Drive, 9th Fl.-Cover Orange

